Commonwealth of Kentucky
Office of the Attorney General
Daniel Cameron
Attorney General

April 6, 2021

Capitol Building, Suite 118
700 Capital Avenue
Frankfort, Kentucky 40601
(502) 696-5300
Fax: (502) 564-2894

BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Cameron v. EMW Women’s Surgical Center, P.S.C., et al., No. 20-601

Dear Mr. Harris:
We represent the Petitioner in the above-captioned case. Having conferred
with opposing counsel, we write to respectfully request a 30-day briefing extension
under Rule 30.4 for the parties’ principal briefs on the merits, which will assist
counsel in managing preexisting matters pending before other courts. The requested
extension would result in the following schedule:
June 14, 2021 for Petitioner’s Brief on the Merits and the Joint Appendix
August 13, 2021 for Respondents’ Brief on the Merits
Respondents consent to this request.
Sincerely,
/s Barry L. Dunn
Barry L. Dunn
Counsel of Record for
Petitioner Attorney General
Daniel Cameron
cc: Andrew Beck, Counsel of Record for Respondents

